               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-02641-50




    Combined Assessment Program 

            Review of the 

     Coatesville VA Medical Center 

       Coatesville, Pennsylvania 





January 27, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Coatesville VA Medical Center
                 FY             fiscal year
                 HPC            hospice and palliative care
                 MH             mental health
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 OSHA           Occupational Safety and Health Administration
                 PCCT           Palliative Care Consult Team
                 QM             quality management
                 RME            reusable medical equipment
                 RRTP           residential rehabilitation treatment program
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                CAP Review of the Coatesville VA Medical Center, Coatesville, PA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       4

  QM ..........................................................................................................................    4

  EOC ........................................................................................................................     6

  Medication Management – CS Inspections .............................................................                             9

  Coordination of Care – HPC ...................................................................................                  10

  Nurse Staffing .........................................................................................................        11

  Construction Safety.................................................................................................            12

  MH RRTP… ............................................................................................................           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. VHA Patient Satisfaction Survey .......................................................................                      17

  C. Acting VISN Director Comments .......................................................................                        18

  D. Acting Facility Director Comments ....................................................................                       19

  E. OIG Contact and Staff Acknowledgments .........................................................                              23

  F. Report Distribution .............................................................................................            24

  G. Endnotes ...........................................................................................................         25





VA OIG Office of Healthcare Inspections
                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
September 9, 2013.

Review Results: The review covered seven activities.                              We    made      no
recommendations in the following four activities:

   Quality Management

   Medication Management – Controlled Substances Inspections

   Coordination of Care – Hospice and Palliative Care

   Nurse Staffing

The facility’s reported accomplishments were the implementation of a team-based
outpatient mental health model of care and a promotional video that featured the
Dementia Competencies at Home Program.

Recommendations: We made recommendations in the following three activities:
Environment of Care: Ensure that Environmental Management Service closets are
secured at all times and that ceiling tiles are promptly replaced.

Construction Safety: Ensure that contractors receive Occupational Safety and Health
Administration Construction Safety training prior to project initiation.    Secure
construction sites against unauthorized access.

Mental Health Residential Rehabilitation Treatment Program: Fix the cause of the
pooling water outside the shower on unit 7A, and hang the identified handicapped
bathroom door on unit 7A correctly. Ensure all domiciliary units are clean. Conduct and
document monthly self-inspections on all domiciliary units, and ensure all medications in
resident rooms are secured.

Comments
The Acting Veterans Integrated Service Network Director and Acting Facility Director
agreed with the Combined Assessment Program review findings and recommendations




VA OIG Office of Healthcare Inspections                                                             i
                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA


and provided acceptable improvement plans. (See Appendixes C and D, pages 18–22,
for the full text of the Directors’ comments.) We will follow up on the planned actions
until they are completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                             ii
                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Nurse Staffing

   	   Construction Safety

   	   MH RRTP

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
September 9, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the



VA OIG Office of Healthcare Inspections                                                            1
                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Coatesville VA Medical Center, Coatesville, Pennsylvania,
Report No. 10-02991-96, February 23, 2011).

During this review, we presented crime awareness briefings for 265 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
257 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

MH Patient-Centered Care Model
In May 2012, VHA selected the facility to participate as a pilot site in the development of
a new team-based outpatient model of MH care, the Behavioral Health Interdisciplinary
Program. The facility established six interdisciplinary teams. Each team is comprised
of a psychiatrist, psychologist, registered nurse, social worker, licensed practical nurse,
health technician, and administrative support person. Four teams are located at the
main campus, a fifth team is located at the Spring City community based outpatient
clinic, and a sixth team is located at the Springfield community based outpatient clinic.
The model offers extended hours of care and telemental health care provided by a
psychiatrist from a remote location.

Dementia Competencies at Home Program
In September 2012, VA released a promotional video about non-institutional long-term
care initiatives that featured the facility’s Dementia Competencies at Home Program. In
addition, the program was selected to be featured on the video program The American
Veteran.

The mission of the facility’s Dementia Competencies At Home Program is to maintain
veterans with dementia in their homes through structured outpatient care and in-home
dementia care and with education and support for their caregivers. Patients are seen in
the Golden Memory Clinic where memory and functional status are assessed. Primary
care staff are available for consultation as needed. Caregivers’ educational needs and
care burden are also assessed and evaluated. Based on these assessments, facility
staff schedule home visits with caregivers to provide education on fall prevention,
wandering caused by dementia, and other topics identified in the assessments. The
education provided through the home visits gives caregivers the tools they need to keep


VA OIG Office of Healthcare Inspections                                                            2
                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA


their home safe. In addition, tele-video visits are regularly scheduled to keep VA staff in
touch with caregivers and to assess veterans’ functional status.




VA OIG Office of Healthcare Inspections                                                            3
                                             CAP Review of the Coatesville VA Medical Center, Coatesville, PA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

 NC                   Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
       Local policy for the use of observation beds
       complied with selected requirements.
 NA    Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.



VA OIG Office of Healthcare Inspections                                                                    4
                                             CAP Review of the Coatesville VA Medical Center, Coatesville, PA


 NC             Areas Reviewed (continued)                                   Findings
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
       Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    5
                                              CAP Review of the Coatesville VA Medical Center, Coatesville, PA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the SPS area were met.2

We inspected the medical unit, the Domiciliary Care for Homeless Veterans RRTP, the female
Domiciliary Care for Homeless Veterans RRTP, the Post-Traumatic Stress Disorders RRTP, the
Substance Abuse RRTP, the inpatient locked MH unit, the CLC unit, the hospice unit, urgent
care, and SPS. Additionally, we reviewed relevant documents, conversed with key employees
and managers, and reviewed four SPS employee training and competency files. The table
below shows the areas reviewed for this topic. The area marked as NC needed improvement.
Any items that did not apply to this facility are marked NA.

 NC           Areas Reviewed for General EOC                                  Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.        Two Environmental Management Service
                                                           closets were unsecured in one of nine
                                                           units/areas inspected.
                                                          There were missing ceiling tiles in a patient
                                                           room on the CLC unit and in sterile supply
                                                           and linen rooms on the hospice unit.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
            Areas Reviewed for Hemodialysis
 NA    The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.



VA OIG Office of Healthcare Inspections                                                                     6
                                              CAP Review of the Coatesville VA Medical Center, Coatesville, PA


 NC          Areas Reviewed for Hemodialysis                                  Findings
                          (continued)
 NA    Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.
 NA    Employees received training on blood borne
       pathogens.
 NA    Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 NA    Selected EOC/infection prevention/safety
       requirements were met.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
 NA    The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training
       and competency assessment.
 NA    Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
 NA    RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

1. We recommended that processes be strengthened to ensure that Environmental
Management Service closets are secured at all times.



VA OIG Office of Healthcare Inspections                                                                     7
                                          CAP Review of the Coatesville VA Medical Center, Coatesville, PA


2. We recommended that processes be strengthened to ensure that ceiling tiles are promptly
replaced and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 8
                                            CAP Review of the Coatesville VA Medical Center, Coatesville, PA


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of the CS Coordinator and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. Any items that did not apply to this facility
are marked NA. The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                       Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   9
                                             CAP Review of the Coatesville VA Medical Center, Coatesville, PA


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (15 HPC staff records and 10 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

 NC                     Areas Reviewed                                       Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                                   10
                                             CAP Review of the Coatesville VA Medical Center, Coatesville, PA


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and MH).5

We reviewed relevant documents and 32 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute medical/surgical
unit 1B, CLC unit 138B, and MH unit 58B for 52 randomly selected days (holidays, weekdays,
and weekend days) between October 1, 2012, and March 31, 2013. The table below shows the
areas reviewed for this topic. Any items that did not apply to this facility are marked NA. The
facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                        Findings
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
       The unit-based expert panels followed the
       required processes and included all required
       members.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   11
                                              CAP Review of the Coatesville VA Medical Center, Coatesville, PA


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.6

We inspected the new locked inpatient MH unit construction project. Additionally, we reviewed
relevant documents and 20 training records (10 contractor records and 10 employee records),
and we conversed with key employees and managers. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                    Areas Reviewed                                         Findings
       There was a multidisciplinary committee to
       oversee infection control and safety
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
       Infection control, preconstruction, interim life
       safety, and contractor tuberculosis risk
       assessments were conducted prior to project
       initiation.
 NA    There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
       Site inspections were conducted by the
       required multidisciplinary team members at
       the specified frequency and included all
       required elements.
       Infection Control Committee minutes
       documented infection surveillance activities
       associated with the project(s) and any
       interventions.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
 X     Contractors and designated employees               Employee and contractor training records
       received required training.                        reviewed:
                                                           Two contractor records did not contain
                                                             evidence of OSHA Construction Safety
                                                             training.
       Dust control requirements were met.




VA OIG Office of Healthcare Inspections                                                                    12
                                            CAP Review of the Coatesville VA Medical Center, Coatesville, PA


 NC            Areas Reviewed (continued)                                 Findings
       Fire and life safety requirements were met.      There was an unsecured construction site
                                                         with open trenches and equipment near the
                                                         sidewalk that connects the main facility to the
                                                         MH RRTP.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.

Recommendations

3. We recommended that processes be strengthened to ensure that contractors receive OSHA
Construction Safety training prior to project initiation.

4. We recommended that processes be strengthened to ensure construction sites are secured
against unauthorized access and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  13
                                             CAP Review of the Coatesville VA Medical Center, Coatesville, PA


MH RRTP
The purpose of this review was to determine whether the facility’s MH RRTPs complied with
selected EOC requirements.7

We reviewed relevant documents and inspected the following units: (1) the Domiciliary Care for
Homeless Veterans RRTP (7A), (2) the female Domiciliary Care for Homeless Veterans RRTP
(8A), (3) the Post-Traumatic Stress Disorder RRTP (8B), and (4) the Substance Abuse RRTP
(39A). Additionally, we conversed with key employees. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                   Areas Reviewed                                        Findings
  X    The residential environment was clean and in     None of the four units were clean.
       good repair.                                      On 7A, we found dirty grates in the shower,
                                                           pooling water outside the shower, and a dirty
                                                           kitchen and day room. In addition, we
                                                           identified one handicapped bathroom door
                                                           that was not hung correctly, preventing it
                                                           from closing.
                                                         On 8A, we found a dirty kitchen and day
                                                           room.
                                                         On 8B, we found dirty grates in the shower
                                                           and a dirty kitchen and day room.
                                                         On 39A, we found a dirty day room.
       Appropriate fire extinguishers were available
       near grease producing cooking devices.
       There were policies/procedures that
       addressed safe medication management and
       contraband detection.
 X     Monthly MH RRTP self-inspections were             We did not find documentation of monthly
       conducted, documented, and included all            self-inspections for any of the four units.
       required elements; work orders were
       submitted for items needing repair; and any
       identified deficiencies were corrected.
       Contraband inspections, staff rounds of all
       public spaces, daily bed checks, and resident
       room inspections for unsecured medications
       were conducted and documented.
       Written agreements acknowledging resident
       responsibility for medication security were in
       place.
       The main point(s) of entry had keyless entry
       and closed circuit television monitoring, and
       all other doors were locked to the outside and
       alarmed.




VA OIG Office of Healthcare Inspections                                                                   14
                                            CAP Review of the Coatesville VA Medical Center, Coatesville, PA


 NC            Areas Reviewed (continued)                                   Findings
       Closed circuit television monitors with
       recording capability were installed in public
       areas but not in treatment areas or private
       spaces, and there was signage alerting
       veterans and visitors that they were being
       recorded.
       There was a process for responding to
       behavioral health and medical emergencies,
       and staff were able to articulate the
       process(es).
       In mixed gender units, women veterans’
       rooms were equipped with keyless entry or
       door locks, and bathrooms were equipped
       with door locks.
 X     Medications in resident rooms were secured.      We found unsecured medications in resident
                                                         rooms on units 7A, 8A, and 8B.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

5. We recommended that the cause of the pooling water outside the shower on unit 7A be
fixed and the identified handicapped bathroom door on unit 7A be hung correctly and that
processes be strengthened to ensure that units 7A, 8A, 8B, and 39A are clean and that
compliance be monitored.

6. We recommended that processes be strengthened to ensure that monthly self-inspections
are conducted on all MH RRTP units and documented and that compliance be monitored.

7. We recommended that processes be strengthened to ensure that medications in resident
rooms on units 7A, 8A, and 8B are secured and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  15
                                            CAP Review of the Coatesville VA Medical Center, Coatesville, PA
                                                                                               Appendix A


              Facility Profile (Coatesville/542) FY 2013 through
                                 August 2013a
Type of Organization                                                               Secondary
Complexity Level                                                                   3-Low complexity
Affiliated/Non-Affiliated                                                          Non-Affiliated
Total Medical Care Budget in Millions                                              $182.9
Number (through September 2013) of:
    Unique Patients                                                               18,026
    Outpatient Visits                                                             189,067
    Unique Employeesb                                                             924
Type and Number of Operating Beds:
    Hospital                                                                      54
    CLC                                                                           169
    MH                                                                            229
Average Daily Census:
    Hospital                                                                      14
    CLC                                                                           130
    MH                                                                            126
Number of Community Based Outpatient Clinics                                       2
Location(s)/Station Number(s)                                                      Springfield/542GA
                                                                                   Spring City/542GE
VISN Number                                                                        4




a
    All data is for FY 2013 through August 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                  16
                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA
                                                                                        Appendix B


                        VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient scores for quarters 3–4 of FY 2012 and quarters 1–2 of FY 2013
and overall outpatient satisfaction scores for FY 2012.

Table 1

                Inpatient Scores                             Outpatient Scores
               FY 2012     FY 2013                               FY 2012
              Inpatient      Inpatient      Outpatient    Outpatient     Outpatient     Outpatient
              Score          Score          Score         Score          Score          Score
              Quarters 3–4   Quarters 1–2   Quarter 1     Quarter 2      Quarter 3      Quarter 4
Facility       *              *             69.5           70.3          66.7           63.0
VISN           65.4           67.9          59.5           60.5          59.3           60.8
VHA            65.0           65.5          55.0           54.7          54.3           55.0
 * A score is not reported because there were fewer than 30 cases.




VA OIG Office of Healthcare Inspections                                                              17
                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA
                                                                                        Appendix C
                        Acting VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


       Date:           December 20, 2013

       From:           Acting Network Director, VA Healthcare – VISN 4 (10N4)

       Subject:        Status Request – OIG CAP Review of the Coatesville VA
                       Medical Center, Coatesville, PA

       To:             VHA 10AR MRS OIG CAP Reviews
                       OIG Follow Up Staff (53B)

       1. I have reviewed the responses provided by the Coatesville VA Medical
       Center and I am submitting it to your office as requested. I concur with all
       responses.

       2. If you have any questions or require additional information, please
       contact Barbara Forsha, VISN 4 Quality Management Officer at
       412-822-3290.




       Attachment




VA OIG Office of Healthcare Inspections                                                           18
                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA
                                                                                        Appendix D
                      Acting Facility Director Comments



       Department of
       Veterans Affairs                                            Memorandum


       Date:           December 12, 2013

       From:           Acting Director, Coatesville VA Medical Center (542/00)

       Subject:        CAP Review of the Coatesville VA Medical Center,
                       Coatesville, PA

       To:             Director, VA Healthcare – VISN 4 (10N4)

       I have reviewed the draft report of the Inspector General’s Combined
       Assessment Program (CAP) of the Coatesville VA Medical Center. We
       concur with the findings and recommendations.

       I appreciate the opportunity for this review as a continuing process to
       improve care to our Veterans.


             (original signed by:)
       Jonathan R. Eckman, P.E.
       Acting Medical Center Director




VA OIG Office of Healthcare Inspections                                                           19
                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
Environmental Management Service closets are secured at all times.

Concur

Target date for completion: January 30, 2014

Facility response: Employees educated on the importance of securing the closets.
Random assessments of locked closets weekly has been added to supervisory rounds.
Environmental Management Services (EMS) to report monthly at Environment of Care
Committee.

Recommendation 2. We recommended that processes be strengthened to ensure that
ceiling tiles are promptly replaced and that compliance be monitored.

Concur

Target date for completion: January 30, 2014

Facility response: New process has been established for each unit to do a monthly
environmental inspection (separate from Environment Of Care Rounds) for the purpose
of addressing and resolving issues on a timely basis. Unit staff are responsible for
entering work orders and reports are submitted to the safety office for review monthly.
Safety will report status of work orders entered for tile replacement to Environment of
Care Committee monthly.

Recommendation 3. We recommended that processes be strengthened to ensure that
contractors receive OSHA Construction Safety training prior to project initiation.

Concur

Target date for completion: January 30, 2014

Facility response: Contractor and contractor employees will produce OSHA
Construction training certificate prior to issuance of VA ID badge prior to the start of
work on station. New process established to be monitored by contracting office and
reported monthly at the Construction Safety Committee.




VA OIG Office of Healthcare Inspections                                                           20
                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA


Recommendation 4. We recommended that processes be strengthened to ensure
construction sites are secured against unauthorized access and that compliance be
monitored.

Concur

Target date for completion: January 30, 2014

Facility response: Project Manager to visit each construction site at least daily to
increase vigilance and ensure the safety of the construction site. Engineering to report
to Construction Safety Committee monthly.

Recommendation 5. We recommended that the cause of the pooling water outside the
shower on unit 7A be fixed and the identified handicapped bathroom door on unit 7A be
hung correctly and that processes be strengthened to ensure that units 7A, 8A, 8B, and
39A are clean and that compliance be monitored.

Concur

Target date for completion: January 15, 2014

Facility response: Work order entered to evaluate and repair water pooling on 7A.
(GP131231-006)

Work order entered to evaluate the function of the door. (RA-131206-031). Each of the
identified units has been cleaned thoroughly and is being maintained daily with weekly
inspections by supervisory staff from Environmental Manangement Services (EMS).
EMS to report monthly to Environment of Care Committee.

Recommendation 6. We recommended that processes be strengthened to ensure that
monthly self-inspections are conducted on all MH RRTP units and documented and that
compliance be monitored.

Concur

Target date for completion: January 30, 2014

Facility response: New process has been established for each unit to do a monthly
environmental inspection (separate from Environment of Care Rounds) for the purpose
of addressing and resolving issues on a timely basis. Unit staff are responsible for
entering work orders and reports are submitted to the safety office for review monthly.
Safety to report to Environment of Care Committee quarterly.




VA OIG Office of Healthcare Inspections                                                           21
                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA


Recommendation 7. We recommended that processes be strengthened to ensure that
medications in resident rooms on units 7A, 8A, and 8B are secured and that compliance
be monitored.

Concur

Target date for completion: January 30, 2014

Facility response: Unit staff complete routine face checks on the unit and have added a
locker security check to the process. If a locker is found unsecure with medications
accessible, the medications are removed and are given to a staff member to secure and
returned to veteran after re-educating veteran on the need of securing medications and
locker/belongings. Staff to document education in the medical record. Quality
Improvement Mental Health Nurse Coordinator (QI) will audit/compare the record of
face/locker checks done by staff with the medical record for corresponding education
documentation provided to veteran and report summary monthly to the STAR
Committee (Survey Team Accreditation Readiness).




VA OIG Office of Healthcare Inspections                                                           22
                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact 	               For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite 	                Myra Conway, RN, MS, Team Leader
Contributors 	          Bruce Barnes
                        Lisa Barnes, MSW
                        Gail Bozzelli, RN
                        Kay Foster, RN
                        Donna Giroux, RN
                        Randall Snow, JD
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Natalie Sadow, MBA
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                           23
                                     CAP Review of the Coatesville VA Medical Center, Coatesville, PA
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Acting Director, VA Healthcare – VISN 4 (10N4)
Acting Director, Coatesville VA Medical Center (542/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Robert P. Casey, Jr.; Patrick J. Toomey
U.S. House of Representatives: Jim Gerlach, Pat Meehan, Joseph R. Pitts


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                           24
                                               CAP Review of the Coatesville VA Medical Center, Coatesville, PA
                                                                                                  Appendix G

                                                    Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
    Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
    Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
    September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
    January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, OSHA, the
    National Fire Protection Association, the American National Standards Institute, the Association for the
    Advancement of Medical Instrumentation, the International Association of Healthcare Central Service Materiel
    Management, and the Association for Professionals in Infection Control and Epidemiology.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.
5
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.




VA OIG Office of Healthcare Inspections                                                                      25
                                               CAP Review of the Coatesville VA Medical Center, Coatesville, PA



6
    References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
    Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 VA Office of Construction and Facilities Management, Mental Health Facilities Design Guide, Technical
    Narrative, Architecture, 4.3.3, Patient and Staff Safety.
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and OSHA regulations.
7
  References used for this topic were:
	 VHA Handbook 1162.02, Mental Health Residential Rehabilitation Treatment Program (MH RRTP),
   December 22, 2010.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 Requirements of the VHA Center for Engineering and Occupational Safety and Health and the National Fire
   Protection Association.




VA OIG Office of Healthcare Inspections                                                                        26
